U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John Willie Johnson aka Dewayne Henderson v. United States of America
S.Ct. No. 20-8342
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 14,
2021, and placed on the docket on June 17, 2021. The government’s response is due on July 19,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8342
JOHNSON, JOHN WILLIE AKA DEWAYNE
HENDERSON
USA

MICHAEL L. SCOTT
ASSISTANT FEDERAL PUBLIC DEFENDER
NORTH/SOUTH. DIST.OF MISS.
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
601-948-4284
MIKE_SCOTT@FD.ORG

